               Office of Inspector General




May 27, 2005

HENRY A. PANKEY
VICE PRESIDENT, EMERGENCY PREPAREDNESS

SUBJECT: Management Advisory - Response to Incidents Involving Suspicious Mail
         and Unknown Powders and Substances
         (Report Number DA-MA-05-001)

This report presents the results of our self-initiated review to learn how the United
States Postal Service responds to incidents involving suspicious mail and unknown
powders and substances (Project Number 05WG004DA000). The Postmaster General
requested the Office of Inspector General (OIG) review the Postal Inspection Service’s
practices for handling dangerous mail and suspect packages at the Government Mail
Processing Facility in Washington, D.C. Based on that work we initiated this review.

                                                    Background

The Postal Service has reported over 20,000 incidents involving suspicious mail and
unknown powders and substances since October 2001.1 While no incidents since the
2001 unprecedented anthrax attacks using the nation’s mail system appear to have
resulted in health risks to Postal Service employees and/or customers, the Postal
Service recognized that some of those incidents were not always adequately managed.
As a result, the Postal Service created the headquarters, Office of Emergency
Preparedness to address this issue and to develop, implement, and coordinate
emergency preparedness plans to protect employees, customers, operations, and mail
security. Districts and areas also created Offices of Emergency Preparedness to
ensure employees consistently applied policies and procedures for suspicious mail and
to provide clear guidance regarding response to suspicious powders.

                                     Objective, Scope, and Methodology

The objective of this review was to determine whether policies, procedures, and
guidance regarding suspicious mail were communicated to and understood by Postal




1
    The Postal Inspection Service established the Suspicious Incident Reporting System to record suspicious incidents.



       1735 N Lynn St.
       Arlington, VA 22209-2020
       (703) 248-2100
       Fax: (703) 248-2256
Response to Incidents Involving Suspicious Mail                                DA-MA-05-001
 and Unknown Powders and Substances


Service employees and management. To accomplish this, we judgmentally selected for
review four districts in two areas that reported a large number of incidents to the Postal
Inspection Service’s Suspicious Incident Reporting System between September 1,
2001, and August 19, 2004. We interviewed personnel to assess the policies,
procedures, and practices in place at selected district offices and made observations
and inquiries at six plants and ten associate offices within these districts. In addition,
we obtained and reviewed applicable headquarters and local policies, procedures, and
documentation.

This review was conducted from January through May 2005 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our observations and conclusions with appropriate management officials and
included their comments where appropriate. We assessed the reliability of the
Suspicious Incident Reporting System by verifying computer records to source
documents at selected field offices.

                                           Prior Coverage




                                                  Results

Based on our limited review at the facilities visited, Postal Service managers,
supervisors, and employees were generally aware of policies for handling suspicious
mail and unknown powders and substances. However, we did find some instances of
policy noncompliance, and believe field emergency preparedness managers could
enhance employees’ awareness and adherence to policies.

In a number of locations, we found conditions like those we reported in September 2004
and May 2005:

    •   Supervisors at four of the associate offices and two of the plants did not follow
        established policies, procedures, and guidance when managing suspicious mail
        incidents. According to district managers, this was because supervisors relied on
        their judgment or had little experience.

    •   Supervisors at two of the associate offices did not ensure that the latest policies
        on suspicious mail and unknown powders and substances were incorporated into
        emergency planning documents.
    •   Management at one plant said the Postal Inspection Service advised that it would
        be appropriate for an employee to handle and bag a suspicious mailpiece
        involving suspected or alleged biohazard substances.

Further, we found the following additional conditions:



                                                     2
Response to Incidents Involving Suspicious Mail                                   DA-MA-05-001
 and Unknown Powders and Substances


    •   Supervisors at four of the plants and four of the associate offices did not display
        suspicious mail posters, decision trees, or flowcharts outlining current national
        policies. Officials at three districts believed their local flowcharts and decision
        trees provided adequate guidance.

    •   One district did not use the September 2004 suspicious mail tabletop exercises
        to facilitate training and management was not aware this version existed.

    •   No managers, supervisors, or employees knew that the national Decision Tree
        for Suspicious Mailpieces had been updated and incorporated into the
        September 2004 suspicious mail tabletop exercises because an outdated
        decision tree was referenced under policies and procedures on the Suspicious
        Mail Web site.

    •   Management at two of the districts did not require units to document and track
        incidents involving suspicious mail and unknown powders and substances.
        Officials at one district office believed this would be duplicative and officials at
        another district preferred to maintain a record system independent of the Postal
        Inspection Service’s.

    •   One district had used a contractor since 2002 to respond to and test suspected
        or alleged biohazard substances found in plants instead of relying on local
        HAZMAT personnel. District officials claimed that the contractor responded
        quicker, inspired employee confidence in management, and reduced media
        exposure.

On February 28, 2005, we briefed the Office of Emergency Preparedness and the
Suspicious Mail Working Group on the results of the review. The comments we
received show that both are aggressively committed to finding improved ways to handle
suspicious mail and unknown powders and substances. We acknowledge the Postal
Service’s continued efforts in this area, including formation of the Suspicious Mail
Working Group to review, consolidate, reconcile, and reissue necessary policies.

Recommendations

We recommend the vice president, Emergency Preparedness:

    1. Encourage field emergency preparedness managers to improve employees’
       awareness of emergency planning and ensure compliance with established
       policies and procedures.

    2. Remove outdated references on the Suspicious Mail Web site.

Management’s Comments

Management indicated agreement with the recommendations stating they were very
helpful in reinforcing their own conclusions about the suspicious mail area.
                                                  3
Response to Incidents Involving Suspicious Mail                             DA-MA-05-001
 and Unknown Powders and Substances


Management agreed to place new suspicious mail policy documents on the Web site by
the end of May 2005. Management is currently removing from the site all information
and documents containing conflicting procedures to ensure consistency of policy.
Management added that new policy documents would also be widely distributed
throughout the organization in hard copy format to employees’ home addresses within
six to eight weeks. In addition, management stated the cross-functional group
consisting of managers and specialists from various departments, including Emergency
Preparedness, will continue to review and communicate any information to employees
consistent with the new policy. Management’s comments, in their entirety, are included
in the appendix of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 1 and 2 and actions
taken and planned should correct the issues identified in the finding.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions, please contact Miguel Castillo, Director, Engineering, or me
at (703) 248-2300.




Colleen A. McAntee
Deputy Assistant Inspector General
 for Field Operations

Attachment

cc: Steven R. Phelps




                                                  4
Response to Incidents Involving Suspicious Mail           DA-MA-05-001
 and Unknown Powders and Substances


                        APPENDIX. MANAGEMENT’S COMMENTS




                                                  5
